U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                             August 15, 2005
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) in the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the seventh since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from January 1, 2005, through
June 30, 2005.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components.

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

      •   Audit Division is responsible for independent audits of Department
          programs, computer systems, and financial statements.

      •   Evaluation and Inspections Division provides an alternative
          mechanism to traditional audits and investigations to review
          Department programs and activities.

      •   Investigations Division is responsible for investigating allegations of
          bribery, fraud, abuse, civil rights violations, and violations of other
          criminal laws and administrative procedures that govern Department
          employees, contractors, and grantees.

      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.




Office of the Inspector General, U.S. Department of Justice              Page 1
      •   Management and Planning Division assists the OIG by providing
          services in the areas of planning, budget, finance, personnel, training,
          procurement, automated data processing, computer network
          communications, and general support.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 410 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 1 The
Special Agent in Charge who directs this unit is assisted by two Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters and a second who assists on FBI matters. In addition, four
Investigative Specialists support the unit and divide their time between
Section 1001 and FBI/DEA responsibilities.

       The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by the Investigative Specialist and an ASAC. After review, the
complaint is entered into an OIG database and a decision is made concerning
its disposition. The more serious civil rights and civil liberties allegations that
relate to actions of DOJ employees or DOJ contractors normally are assigned to
an OIG Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct. 2 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs (OIA) for appropriate handling. In certain referrals, the OIG requires the
components to report the results of their investigations to the OIG. In most
cases, the OIG notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff are sent to the Department of Homeland

      1 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI and the DEA.

        2 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Security (DHS) OIG. We also have forwarded complaints to the OIGs at the
Department of Veterans Affairs, Department of State, United States Postal
Service, Department of Defense, Central Intelligence Agency, and the Equal
Employment Opportunity Commission. In addition, we have referred
complainants to a variety of police department internal affairs offices that have
jurisdiction over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the complaint is
discussed with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution.

     A. Complaints Processed This Reporting Period

       From January 1, 2005, through June 30, 2005, the period covered by
this report, the OIG processed 834 complaints that were sent primarily to the
OIG’s Section 1001 e-mail or postal address. 3

       Of these complaints, we concluded that 624 did not warrant further
investigation or did not fall within the OIG’s jurisdiction. Approximately one-
third (182 complaints) of the 624 complaints made allegations that did not
warrant an investigation. For example, complaints in this category alleged that
FBI agents sprayed chemicals around a complainant’s bed, contaminated a
complainant’s food, injected individuals with “hypodermic behavioral
instruments” as a deterrent for committing crimes, and converted a
complainant’s television into a surveillance mechanism. The remaining two-
thirds of the 624 complaints (442) in this category involved allegations against
agencies or entities outside of the DOJ, including other federal agencies, local
governments, or private businesses. We referred those complaints to the
appropriate entity or advised complainants of the entity with jurisdiction over
their allegations.

      Consequently, 210 complaints involved DOJ employees or components
and made allegations that required further review. Of those complaints, 186
raised management issues rather than alleged civil rights or civil liberties
abuses, and we referred them to DOJ components for appropriate handling.
Complaints in this category included inmates’ allegations about the general

         3 This number includes all complaints in which the complainant makes any mention of

a Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction. The significant reduction in the total number of complaints processed
this reporting period compared to prior reporting periods was largely attributable to the OIG’s
filtering of repeat complaints from individuals whose earlier complaints did not warrant
investigation. In this report, we do not include in the statistics multiple complaints from the
same person on the same subject.


Office of the Inspector General, U.S. Department of Justice                               Page 4
conditions at federal prisons, such as the lack of hygiene products or deficient
medical care. Four of the 210 complaints did not provide sufficient detail to
make a determination whether an abuse was alleged. We requested further
information but did not receive responses from these four complainants.

       We requested that other DOJ components investigate 7 of these 210
complaints and report to us on the investigations’ findings. Five of these
complaints were referred to the BOP, one was referred to the DEA, and one was
referred to the U.S. Marshals Service.

      Of the remaining complaints, the OIG identified 13 matters that we
believed warranted opening a Section 1001 investigation or conducting a closer
review to determine if Section 1001-related abuse occurred. Of the 13 new
matters, the OIG retained 7 for investigation because the allegations were of a
potentially criminal or egregious nature. 4 The OIG referred the remaining 6
matters, which appeared to raise largely administrative issues, to Department
components for further investigation or review and requested that the
components report their findings to us.

     None of the complaints we processed during this reporting period alleged
misconduct by DOJ employees relating to use of a provision in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period:

Complaints processed:                                      834

Unrelated complaints:                                      624

Complaints within OIG’s
  jurisdiction warranting review:                          210

Non-Section 1001 matters
     Management issues:                                    186
     Referred to DOJ components
       for investigation:                                     7
     OIG unsuccessfully sought
      further details:                                        4

Section 1001 matters
  warranting review:                                         13




      4   We provide in the next section summaries of these seven complaints.


Office of the Inspector General, U.S. Department of Justice                     Page 5
    B. Section 1001 Cases This Reporting Period

         1. Complaints Investigated by the OIG

             a. New matters

      During this reporting period, the OIG opened seven new Section 1001-
related investigations, continued four ongoing Section 1001-related cases, and
closed one Section 1001 investigation from a previous reporting period. The
seven new matters opened by the OIG are:

   ● The OIG is investigating a complaint from a former Muslim BOP
     correctional officer alleging that staff members referred to certain
     inmates as terrorists; displayed offensive posters depicting Muslim
     prisoners throughout the facility; referred to him as “Bin Laden,”
     “terrorist,” and “towel-head;” and posted a picture of an eagle with its
     middle finger raised which read “Jihad this.”

   ● The OIG is investigating allegations raised by a Muslim inmate in a BOP
     correctional facility that he was praying in the facility’s library when a
     correctional officer ordered him to stop, made derogatory remarks about
     his religious beliefs, issued him an incident report, and placed him in
     solitary confinement.

   ● The OIG is investigating a complaint in which a BOP inmate alleged that
     a correctional officer ordered him to drop his Koran on the floor outside
     of his cell. According to the complaint, when the inmate complied with
     the order, the officer kicked the Koran and walked away.

   ● The OIG is investigating an allegation from a BOP inmate that while the
     inmate was at prayer services an Assistant Warden entered his cell and
     ordered a correctional officer to confiscate his prayer rug and Koran and
     to dispose of the items in the garbage incinerator.

   ● The OIG investigated allegations from a BOP inmate that Muslim
     prisoners at a BOP facility were subjected to intimidation, physically and
     mentally abused, and denied adequate medical treatment. In an
     interview with the OIG, the complainant inmate admitted that he had not
     been subjected to any physical abuse and that his allegation of
     inadequate medical care was based on the fact that he had to wait
     several months to obtain eyeglasses. This matter subsequently was
     referred to the BOP, which concluded that the inmate received
     appropriate medical care. The OIG closed this matter and provided a
     copy of its report to the BOP.




Office of the Inspector General, U.S. Department of Justice            Page 6
   ● The OIG investigated allegations from a Muslim inmate that he was
     physically abused and threatened by correctional officers and told that it
     was because “one of his Muslim brothers” had stabbed an officer. The
     inmate alleged the officers placed him in a holding cell, removed his
     clothing, placed a rope around his neck, and told him, “We can call this
     the new Abu Ghraib.” In an OIG interview, the inmate admitted that he
     fabricated these allegations. The OIG closed this matter and provided its
     report of investigation to the BOP.

   ● The OIG investigated allegations raised by a Muslim inmate that he was
     physically assaulted; verbally abused; denied clothing, food, and water;
     and unjustly detained in solitary confinement for 2 years. When the
     inmate was interviewed, he denied being subjected to any type of
     physical abuse. The OIG plans to close this matter as unsubstantiated
     and provide a copy of its report to the BOP.

             b. Cases opened during previous reporting periods that the
                OIG continues to investigate

   ● The OIG continues an investigation of the FBI’s conduct in connection
     with the erroneous identification of a latent fingerprint found on evidence
     from the March 2004 Madrid train bombing as belonging to Brandon
     Mayfield, an attorney in Portland, Oregon. As a result of the
     identification, the FBI initiated an investigation of Mayfield that resulted
     in his arrest as a “material witness” and his detention for approximately
     2 weeks. Mayfield was released when Spanish National Police matched
     the fingerprints on the evidence to an Algerian national. The OIG is
     examining the cause of the erroneous identification and the FBI’s
     handling of the matter. The Department’s Office of Professional
     Responsibility is reviewing the conduct of the prosecutors in the case.
     The OIG is drafting a report of investigation related to our findings in this
     matter.

   ● The OIG is investigating allegations made by an Egyptian national that
     during his detention at a BOP facility he was subjected to a body cavity
     search in the presence of numerous people, including a female officer;
     placed alone in a cell under severe restrictions for more than 2 months;
     and had his ability to practice his religion undermined intentionally by
     the prison staff. The OIG continues to investigate this matter, along with
     the United States Attorney’s Office for the Eastern District of Texas.

   ● The OIG is investigating allegations made by a BOP inmate that
     correctional officers humiliated and abused Muslim inmates because of
     their hatred of Muslims. The inmate alleged that correctional officers
     used excessive force on him, gave other inmates permission to assault
     him, and then covered up the incidents. The inmate also alleged that


Office of the Inspector General, U.S. Department of Justice             Page 7
      BOP staff improperly denied him showers, social visits, and the right to
      attend religious services.

   ● The OIG is concluding its investigation of allegations that a BOP
     correctional officer verbally and physically abused a Muslim inmate while
     the inmate was being transported to the prison’s hospital and that the
     inmate was placed improperly in solitary confinement following the
     incident. The U.S. Attorney’s Office for the Eastern District of New York
     declined criminal prosecution, and the OIG is drafting its final report of
     investigation for consideration of administrative action by the BOP.

             c. OIG investigations completed during this reporting
                period

   ● The OIG completed its investigation into allegations made by a Muslim
     inmate that prior to his arrival at a BOP facility, correctional officers
     informed other inmates that he was a radical Muslim who would try to
     take over the leadership of other Muslim inmates. He further alleged
     that upon his arrival at the BOP facility he was subjected to excessive,
     undocumented searches; placed in segregation in retaliation for “writing
     up” correctional officers; and verbally abused, physically threatened, and
     spat upon by a correctional officer. The investigation did not develop
     sufficient evidence to substantiate the allegations. Further, the
     investigation concluded that the staff at the facility made efforts to
     accommodate the religious requirements of the Muslim inmates. The
     OIG provided its report of investigation to the BOP.

         2. Complaints Referred to Other Components

       During this reporting period, the OIG referred six complaints to internal
affairs offices within DOJ components for investigation or closer review. One of
the complaints was referred to the FBI as a “Monitored Referral,” which means
the FBI is required at the end of its investigation to send a report of the
investigation to the OIG for review. In this complaint, a Muslim citizen alleged
that her family’s civil rights were violated when they were stopped from
boarding an aircraft and questioned for 45 minutes by airport officials. After
receiving permission to board the aircraft, the complainant and her family were
asked by an FBI official to leave the plane because their names appeared in a
database as possible matches for persons of interest.

       The OIG referred five of the remaining six complaints to the BOP OIA.
The complaints included allegations that BOP staff verbally abused and
threatened Muslim inmates, retaliated against Muslim inmates for filing
complaints, placed Muslim inmates in segregation, confiscated Muslim
inmates’ religious articles, and denied Muslim inmates telephone privileges. All
of the complaints sent to the BOP were designated by the OIG as “Monitored


Office of the Inspector General, U.S. Department of Justice           Page 8
Referrals.” Of these five complaints, the BOP closed one matter as
unsubstantiated and has open investigations in the four other matters.

       C. Other OIG Activities Related to Allegations of Civil Rights
          and Civil Liberties Abuses

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. Given the multi-disciplinary nature of its
work force, the OIG can extend its oversight beyond traditional investigations
to include evaluations, audits, and special reviews of DOJ programs and
personnel. Using this approach, the OIG has initiated or continued several
special reviews that relate, in part, to the OIG’s duties under Section 1001.

          1. Review of FBI Conduct Relating to Detainees in Military
             Facilities in Guantanamo Bay and Iraq

      In December 2004, the OIG initiated a review of FBI employees’
observations and actions regarding alleged abuse of detainees at Guantanamo
Bay, Abu Ghraib prison, and other venues controlled by the U.S. military. The
OIG is examining whether FBI employees participated in any incident of
detainee abuse, whether FBI employees witnessed incidents of abuse, whether
FBI employees reported any abuse, and how those reports were handled by the
FBI. In addition, our review will investigate whether the FBI took inappropriate
action or inappropriately retaliated against any FBI employee who reported any
incident of abuse.

          2. Supplemental Report on September 11 Detainees’ Allegations
             of Abuse at the Metropolitan Detention Center in Brooklyn,
             New York

      An OIG special review issued in December 2003 (and described in detail
in our January 2004 Section 1001 report) examined allegations that some
correctional officers physically and verbally abused some detainees held in
connection with the Department’s terrorism investigation at the Metropolitan
Detention Center (MDC) in Brooklyn, New York. 5 We concluded that certain
MDC staff members abused some of the detainees, and we found systemic
problems in the way detainees were treated at the MDC. In December 2003,
we provided the results of our investigation to the BOP for its review and
appropriate disciplinary action.
       5 See “Supplemental Report on September 11 Detainees’ Allegations of Abuse at the

Metropolitan Detention Center in Brooklyn, New York” (MDC Report), issued December 18,
2003. The MDC Report supplemented an OIG report issued in June 2003 entitled, “The
September 11 Detainees: A review of the Treatment of Aliens Held on Immigration Charges in
Connection with the Investigation of the September 11 Attacks.” Both reports can be found on
the OIG’s internet website (www.usdoj.gov/oig) under “Special Reports.”


Office of the Inspector General, U.S. Department of Justice                      Page 9
      In response to our report and recommendations, the BOP OIA initiated
an investigation based on the OIG’s findings to determine whether discipline
was warranted. During this reporting period, the OIA completed its review and
sustained many of the OIG’s findings. The BOP has initiated the disciplinary
process. The OIG continues to monitor the BOP’s actions with regard to
disciplinary action.

       In addition, the OIG has continued its investigation into the MDC’s
failure to provide the BOP and OIG hundreds of videotapes that were
discovered by the BOP in February 2005. These tapes were relevant to the
OIG’s supplemental review regarding abuse related to the September 11
detainees, but were not provided previously to the OIG – or to the BOP OIA – as
required. Some of the videotapes included additional instances of video- and
audio-taped meetings between detainees and their attorneys at the MDC. The
OIG and the BOP OIA reviewed the newly discovered videotapes, and evidence
from those tapes was incorporated into the BOP OIA’s review of staff treatment
of detainees.

         3. Recommendations in the Detainee Report

      In the June 2003 Detainee Report, the OIG made 21 recommendations
related to issues under the jurisdiction of the FBI, the BOP, leadership offices
at the DOJ, as well as immigration issues now under the jurisdiction of the
DHS. As of this reporting period, 20 of the recommendations have been
resolved. The one open recommendation calls for the Department and the DHS
to enter into a memorandum of understanding (MOU) to formalize policies,
responsibilities, and procedures for managing a national emergency that
involves alien detainees. Discussions between the Department and the DHS
over the language of this MOU are ongoing.

         4.   Review of the FBI’s Implementation of Attorney
              General Guidelines

      In May 2002, the Attorney General issued revised domestic Guidelines
that govern general crimes and criminal intelligence investigations. The OIG is
reviewing the FBI’s implementation of four sets of Attorney General Guidelines:
Attorney General’s Guidelines Regarding the Use of Confidential Informants;
Attorney General’s Guidelines on FBI Undercover Operations; Attorney
General’s Guidelines on General Crimes, Racketeering Enterprise and
Terrorism Enterprise Investigations; and Revised Department of Justice
Procedures for Lawful, Warrantless Monitoring of Verbal Communications.

      The OIG’s review examined what steps the FBI has taken to implement
the Guidelines, analyzed how effective those steps have been, and assessed the
FBI’s compliance with key provisions of the Guidelines. Because the FBI’s


Office of the Inspector General, U.S. Department of Justice           Page 10
adherence to these Guidelines could implicate civil rights or civil liberties
issues under Section 1001, we are including a description of the review in this
report.

      The OIG is in the final stages of completing its report regarding this
review.

IV. EXPENSE OF IMPLEMENTING SECTION 1001

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,050,794
in personnel costs, $18,183 in travel costs (for investigators to conduct
interviews), and $3,362 in miscellaneous costs, for a total of $1,072,339 to
implement its responsibilities under Section 1001. The personnel and travel
costs reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice             Page 11
